IN THE SUPREME COURT OF THE UNITED STATES

No.

IRMA ROSAS,
Petitioner
v.
R.K. KENZIE CORPORATION d/b/a McDONALD’S; DARDEN RESTAURANTS
INCORPORATED d/b/a OLIVE GARDEN RESTAURANT; RED LOBSTER
HOSPITALITY, LLC d/b/a RED LOBSTER SEAFOOD RESTAURANT; and
McDONALD’S CORPORATION d/b/a McDONALD’S,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 8,960 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on August 24, 2020

Irma Rosas, pro se
6333 South Lavergne Ave
Chicago, Illinois 60638

